<html>
<title> - SPOKANE TRIBE OF INDIANS OF THE SPOKANE RESERVATION GRAND COULEE DAM EQUITABLE COMPENSATION SETTLEMENT ACT</title>
<body><pre>[Senate Hearing 108-375]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-375

 SPOKANE TRIBE OF INDIANS OF THE SPOKANE RESERVATION GRAND COULEE DAM 
                 EQUITABLE COMPENSATION SETTLEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1438

 TO PROVIDE FOR EQUITABLE COMPENSATION OF THE SPOKANE TRIBE OF INDIANS 
    OF THE SPOKANE RESERVATION IN SETTLEMENT OF CLAIMS OF THE TRIBE 
     CONCERNING THE CONTRIBUTION OF THE TRIBE TO THE PRODUCTION OF 
                   HYDROPOWER BY THE GRAND COULEE DAM

                               __________

                            OCTOBER 2, 2003
                             WASHINGTON, DC



89-744              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1438, text of.................................................     3
Statements:
    Cantwell, Maria, U.S. Senator from Washington................    16
    Funke, Howard, Funke and Work Law Offices, Coeur D'Alene, ID.    19
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Murray, Patty, U.S. Senator from Washington..................    17
    Pace, Charles E., president and CEO, Regional Services, 
      Challis, ID................................................    19
    Seyler, Warren, chairman, Spokane Tribal Business Council....    19
Prepared Statements:
    Cantwell, Maria, U.S. Senator from Washington................    29
    Funke, Howard................................................    33
    Hickok, Steven G., deputy administrator, Bonneville Power 
      Administration.............................................    36
    Murray, Patty, U.S. Senator from Washington..................    31
    Pace, Charles E..............................................    45
    Robinson, Robert A., managing director, Natural Resources and 
      Environment................................................    60
    Seyler, Warren (with attachment).............................    52

 
 SPOKANE TRIBE OF INDIANS OF THE SPOKANE RESERVATION GRAND COULEE DAM 
                 EQUITABLE COMPENSATION SETTLEMENT ACT

                              ----------                              


                       THURSDAY, OCTOBER 2, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m. in room 
485, Russell Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senators Inouye and Cantwell.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets this 
afternoon to receive testimony on S. 1438, a bill to provide 
for the equitable compensation of the Spokane Tribe in 
settlement of the tribe's claims relating to the use of tribal 
lands for the production of hydropower.
    Seventy years ago, the United States began construction of 
the Grand Coulee Dam in Washington State. In 1940, lands 
belonging to the Confederated Tribes of the Colville 
Reservation and the Spokane Tribe were acquired by the United 
States for its hydropower project, and some minimal 
compensation was authorized to be paid to the tribes.
    Those tribal lands were directly affected by the 
construction and operation of the Grand Coulee Dam. Some lands 
were inundated with water; others were affected by the 
production of hydropower, and salmon fisheries on which the 
tribes were dependent both for subsistence and economically 
were destroyed.
    Fifteen years ago, the Congress enacted a settlement for 
the Confederated Tribes of the Colville Reservation based upon 
the tribe's legal claims which had been pending for 43 years 
before the Indian Claims Commission, the United States Court of 
Federal Claims, and finally the U.S. Court of Appeals for the 
Federal Circuit.
    At that time, recognizing that the Spokane Tribe's legal 
claims for the loss of tribal lands and resources were barred 
by the applicable statute of limitations, several senators 
joined me in calling upon the Departments of the Interior and 
Justice to work with the Spokane Tribe to develop a settlement 
of the tribe's equitable claims.
    That process did not come to fruition, but today I am 
pleased to report that the good and worthy Senators from the 
State of Washington have not forgotten the history of the Grand 
Coulee Dam, and the losses suffered by the Spokane Tribe. We 
are here today to receive testimony on the bill that they have 
introduced to provide equitable compensation to the Spokane 
Tribe for its losses.
    [Text of S. 1438 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. In order to provide a sharpened focus on 
the testimony of the Spokane Tribe, the committee has called 
upon the Bonneville Power Administration, the General 
Accounting Office [GAO] and the Department of the Interior to 
submit written testimony for the record of the hearing today.
    Now it is my pleasure to call upon the authors of the 
measure, my distinguished colleagues from the State of 
Washington, Senator Patty Murray and Senator Maria Cantwell.
    Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    I greatly appreciate your willingness to hold this 
important hearing and for your cosponsorship of this 
legislation. You have been a consistent champion for 
establishing a fair and equitable settlement process and to 
compensate sovereign Indian nations harmed by actions of the 
U.S. Government and those that we represent. For this and the 
other efforts on Washington State tribes, Senator Murray and I 
greatly thank you.
    I would also like to thank my friend and colleague, Senator 
Murray, for her important efforts on this legislation. As you 
all are aware, Senator Murray was instrumental in providing the 
Colville's with a fair and equitable settlement in 1994 for 
nearly identical impact to their reservation. I look forward to 
working with her as we move through this settlement agreement.
    And of course, I would like to thank Warren Seyler and the 
other Spokanes and their representatives for coming today. I 
know you have been fighting for just compensation for a long 
period of time, and the damages to your reservation way of life 
that have been that way since the construction of the Grand 
Coulee Dam in 1933.
    I recognize that this has been a long and extremely 
frustrating process. I hope that this hearing will provide the 
necessary information for us to move forward and once and for 
all resolve the Spokane claims against the U.S. Government.
    I would also like to take this opportunity to reiterate my 
condolences to the tribe regarding the death of Bruce Wynne. 
Bruce obviously was very dedicated to this community and was 
invaluable. His loss will not just be felt in Washington State, 
but across the country. My thoughts and prayers are with his 
family. I know that Bruce spent a great deal of time trying to 
solve this issue, so it is my hope that we can give some quick 
action to this and the longstanding grievances that have been 
here, so that we can move forward and make that a legacy to 
Bruce's leadership.
    Mr. Chairman, my goal for this hearing is to establish for 
the record the harm done to the Spokane Tribe, and the damage 
that was done following the construction of the Grand Coulee 
Dam and the legal and moral obligation that I believe that we 
have as a Federal Government to compensate the Spokane's for 
those damages.
    For more than one-half century, as you mentioned, the Grand 
Coulee Dam project has been an extraordinary contribution to 
our Nation. It helped pull the economy out of the Great 
Depression. It provided the electricity that produced the 
aluminum industry required for airplanes and weapons, and it 
ensured our national security. The project continues to provide 
enormous revenues for the United States and is a key component 
of our agricultural economy in Eastern Washington.
    However, these benefits have come at direct cost and 
expense to tribal property that have been inundated when the 
United States built the Grand Coulee Dam. Before dam 
construction, the free-flowing Columbia River supported a very 
robust and plentiful salmon run and provided virtually all of 
the subsistence needed by the Spokane Tribe. After that 
construction, the Columbia and Spokane River tributary flooded 
tribal communities, schools, roads, and causing problems with 
stagnant water and still erosion problems on the reservation 
today.
    The legislation that Senators Inouye, Murray, and I have 
introduced, which was done in July, is similar to the 
legislation that Senator Murray did in 1994, a bill that 
codified the settlement and provided perpetual payments to the 
neighboring Confederated Colville Tribes. To date, the 
Colvilles have received over $180 million in payments for their 
land inundated by Lake Roosevelt.
    This bill provides the framework for the success that was 
the same for that settlement, providing the Spokanes with 
compensation that is directly proportional to the settlement 
afforded the Colville Tribes.
    Specifically, the Spokane Tribe would receive 39.4 percent 
of the past and future compensation awarded the Colville Tribes 
pursuant to the 1994 legislation. This percentage is based on 
the proportion of tribal lands impacted after the Federal 
Government built the Grand Coulee project.
    S. 1438 also outlines the facts of the Spokane claims and 
describes how the tribe can use that compensation that is 
forthcoming.
    Mr. Chairman, I will enter the rest of my statement for the 
record, but I just want to say that I very much appreciate the 
fact that you have given time for this hearing on this 
important issue. When Federal actions take physical and 
economic impacts on our tribes, we need to respond. So I 
applaud the leadership that you and Senator Murray and others 
are using on this legislation.
    Thank you.
    [Prepared statement of Senator Cantwell appears in 
appendix.]
    Senator Inouye. I thank you very much. Your full statement 
will be made part of the record.
    Now it is my great honor to recognize the distinguished 
senior Senator of the State of Washington, the Honorable Patty 
Murray.

  STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM WASHINGTON

    Senator Murray. Good afternoon, Mr. Chairman. It is a 
delight to call you Mr. Chairman. Thank you very much for 
having this very important hearing today.
    And Senator Cantwell, thank you for your leadership on this 
and the many tribal issues that affect our State, our region 
and, really, our Nation. I look forward to working with you on 
this. I appreciate all your work on this.
    I am really proud to be here today to introduce to the 
committee the distinguished chairman of the Spokane Tribal 
Business Council, Chairman Warren Seyler. He is a leading 
figure in Washington's tribal communities and I know his 
testimony will be of great value to this committee.
    Before I introduce him, I would like to share a few ideas 
about S. 1438. Earlier this year, I joined with Senators 
Cantwell and Inouye in offering legislation that would finally 
compensate the Spokane Tribe for its contribution to the 
hydropower that is generated by the Grand Coulee Dam. You will 
recall I introduced similar legislation in the 106th and 107th 
Congresses. The Grand Coulee Dam is the largest electricity 
producer in the United States. It provides electricity and 
water to the Columbia Basin Project, which is one of the 
world's largest irrigation projects.
    For more than 60 years, the Grand Coulee has been the 
backbone of the Northwest Federal power grid and our 
agricultural economy. But for the Native peoples of this 
region, construction of the Grand Coulee Dam came at a very 
high price. For the Spokane Tribe in particular, it brought an 
end to a way of life. The Spokane River was once a free- 
flowing waterway that supported plentiful salmon runs. It 
became a barren stretch of slack water that now erodes the 
southern lands of the reservation. In fact, the tribe's 
reservation has been flooded on two sides.
    Mr. Chairman, S. 1438 is not the first piece of legislation 
seeking to compensate a tribe for losses brought by the 
construction of Grand Coulee Dam. In 1994, Congress passed 
similar settlement legislation to compensate the neighboring 
Confederated Colville Tribes. Since the 1970's, the Congress 
and Federal agencies have indicated that both the Colville and 
Spokane Tribes should be compensated for their losses. This 
legislation will provide a long overdue settlement to the 
Spokane Tribe.
    Mr. Chairman, it is now my pleasure to introduce Chairman 
Seyler to the committee. He was first elected to the Spokane 
Tribal Business Council in 1990. Chairman Seyler also serves on 
the board of the Upper Columbia United Tribes, which is 
involved in fish and management issues along the Columbia 
River. He is also active in management issues at Lake 
Roosevelt, a reservoir created when the Grand Coulee Dam was 
constructed.
    Finally, Mr. Chairman, I would like to join with Senator 
Cantwell in offering my condolences to the tribe. Last week 
they lost, and indeed all of Indian Country, lost a great deal 
with the passing of former Chairman Bruce Wynne. He led with 
his heart and had a remarkable ability to bridge generations. 
His leadership, knowledge of history and warm personality will 
be missed. I must say his legacy continues in leaders like 
Chairman Seyler, and I am proud to introduce him to the 
committee today.
    Thank you very much.
    [Prepared statement of Senator Murray appears in appendix.]
    Senator Inouye. Chairman Seyler, with that introduction, 
you can't lose. [Laughter.]
    Before you proceed, just for the record, you are 
accompanied by Howard Funke of Funke and Work Law Offices, 
Coeur d'Alene, ID; and Charles E. Pace, president and CEO, 
Regional Services, Challis, ID.
    Would you gentlemen like to join Chairman Seyler at the 
table?

 STATEMENT OF WARREN SEYLER, CHAIRMAN, SPOKANE TRIBAL BUSINESS 
 COUNCIL, ACCOMPANIED BY HOWARD FUNKE, ESQUIRE, FUNKE AND WORK 
LAW OFFICES, COEUR D'ALENE, ID; AND CHARLES E. PACE, PRESIDENT 
            AND CEO, REGIONAL SERVICES, CHALLIS, ID

    Mr. Seyler. Thank you, Mr. Chairman and members of the 
Committee on Indian Affairs for the opportunity to testify on 
S. 1438. As stated, accompanying me is Howard Funke, our 
attorney, and Charles Pace, our economist. Also joining us 
today in the audience is Vice Chairman Greg Abrahamson, tribal 
council member, Dave Wynekoop, Jr., and tribal attorney, Margo 
Hill.
    I am here today on behalf of the Spokane Tribe to ask for 
your help as representatives of the United States of America. I 
ask that you act on behalf of the United States to finally 
treat the Spokane Tribe fairly and honorably for the injury to 
our tribe and reservation caused by the Grand Coulee project.
    My testimony today summarizes the critical need for this 
important legislation. We are also providing briefing books for 
the record and a video. I ask that they be put in the record 
also.
    The Spokane Tribe is an honorable tribe. We are a strong 
tribe, a trusting tribe. We are good for our word and strong in 
our commitment to this Nation. Grand Coulee's waters flooded 
the lands of two sister Indian reservations that held great 
economic, cultural and spiritual significance. Ours is one of 
those reservations.
    Let me just state one issue that I just mentioned, being 
sister Indian reservations. That is exactly what we are even 
today. Today, you can find family members, one enrolled on the 
Colville Reservation as a brother, and on the Spokane 
Reservation a sister may be enrolled. Aunts and uncles, one may 
be enrolled on the Spokane, another on the Colville. That is 
just historic. It has always been that way, even when we had 
free use of the river.
    Our life, culture, economy and religion centered around the 
river. We were river people. We were fishing people. We 
depended heavily on the rivers and historic salmon runs that 
were brought to us. We were known by our neighboring tribes as 
the salmon eaters. The Spokane River, which was named after our 
people, was and is the center of our universe. We call it the 
Path of Life.
    President Rutherford B. Hayes in 1881 recognized the 
importance and significance of these rivers by expressly 
including the entire adjacent river beds of the Spokane and 
Columbia Rivers within our reservation. But the Spokane and 
Columbia Rivers are now beneath Grand Coulee's waters.
    The other reservation flooded by Grand Coulee is that of 
the Colville. The waters that rose behind Grand Coulee brought 
similar fates to our reservations. Burial sites, village sites, 
spiritual sites, all lost to the rising waters, lost so this 
country could benefit. The river banks which provided us plants 
for foods and medicines were forever flooded. Homes, gardens, 
farms, ranches our people had worked hard to build on our 
reservation are now under water. The free-flowing Columbia 
River and our Path of Life is now under the water behind Grand 
Coulee Dam.
    The dam also destroyed our salmon runs, which from time 
immemorial had given us life and identity. While the Colville 
lost most of their runs, salmon were still able to reach the 
Colville Reservation. But upstream to our reservation, the 
salmon was entirely lost. For decades, the Colville and Spokane 
Tribes shared similar histories and dialogue in connection with 
the Grand Coulee issue and were subjected to identical 
misconduct by the U.S. Government.
    When the project first began, it was to be a State project 
governed by the Federal Power Act, which required annual 
compensation to impacted Indian tribes. Later, after the 
project was Federalized and no longer fell under the Federal 
Power Act, Government officials promised and acknowledged that 
the tribes still should be compensated.
    When the construction on Grand Coulee Dam began, the 
Commissioner of Indian Affairs recommended in writing that both 
tribes receive annual payments for the dam's operations. The 
Secretary of the Interior and other high-level Federal official 
knew the tribe should receive compensation, but this never 
happened.
    In 1941, the tribes renewed their efforts, taking the 
extraordinary step of sending a joint delegation cross country 
by train to meet in Washington, DC. This meeting was with the 
Commissioner of Indian Affairs, the issue, Grand Coulee Dam. 
The meeting was held on December 10, 3 days after Pearl Harbor 
was bombed. The Commissioner and his staff explained that the 
war had become the Nation's priority and that Congress could 
not be expected at such times to address the tribes' needs, but 
they promised to do so. They promised they would help. When our 
leaders returned home, they trusted that things would be made 
right once the war was over, and this is the same war that we 
sent our young men and women to help fight.
    Understand, for the Spokane Tribe these were times our 
people were completely dependent on the Bureau of Indian 
Affairs [BIA]. We were allowed to do nothing without the BIA or 
their approval. In words of one of the spiritual people back in 
our tribe, in many of his comments, unfortunately he has passed 
away recently, he would state that back then, BIA was God. We 
could do nothing without asking their permission. We could do 
nothing without them leading the way.
    We were not experienced in the ways of American law, 
politics and business. At that time, we were among the most 
isolated tribes in the Nation. We were a ward of the Department 
of Interior and the BIA. We were beginning to farm and ranch, 
but our subsistence ways depended heavily on the river's 
salmon, and this was most prominent.
    At that time, we had no constitutionally formed government. 
Even though the BIA's nearest agency was 100 miles away on the 
Colville Reservation, we relied on the BIA officials for 
managing details as simple as taking minutes at tribal 
meetings. And put forth at that time, many of our elders still 
did not speak English. They spoke in our Salish tongue.
    So when the Commissioner of Indian Affairs told our people 
he would do all he could to help, it carried great weight back 
home. Most of the communication at this time was done in letter 
form, so it had to be interpreted or read to our people.
    Soon after the war's end in 1946, Congress enacted the 
Indian Claims Commission Act. The ICCA allowed Indian tribes to 
bring historic legal claims against the U.S. Government. 
Several obstacles, unique to our tribe, made the task of filing 
the ICCA claims unusually difficult. First, although the Act 
required the Commission and the BIA to notify all tribes of the 
claim that should be filed, we received no such notice. This 
was due to the very remoteness of our tribe.
    We learned of the ICCA only from the neighboring tribe. I 
believe it was the Colville or the Kalispel and Coeur d'Alene 
Tribes, by happenstance. This was only months before the 1951 
deadline. Second, our leadership acted to retain a lawyer once 
they learned of the ICCA, but the Commissioner of Indian 
Affairs withheld his approval several months, costing our tribe 
much critical time. Also, our constitutional government was 
only finally formed 60 days prior to the 1951 deadline.
    Eventually, the Spokanes filed the standard ICCA claim, 
much like the claim filed by the Colville Tribe, but no mention 
of Grand Coulee was ever made. It was understood to apply only 
to historic claims, rather than claims for wrongful conduct 
that was ongoing.
    In 1972, the Secretary of the Interior established a task 
force to address the Spokane and Colville Tribes, but 
unfortunately the only thing that came out of this task force 
was legal defenses. We trusted that the right thing would be 
done when the task force report came out. It was not. We 
trusted that the Congress would help by addressing our claims 
side by side with the Colvilles. This has not happened yet.
    Grand Coulee's impacts on the Spokane and Colville Tribes 
is virtually identical, as were the tribes' histories of 
dealing with the United States throughout all of the years. 
While the tribes have survived decades of lost hope and broken 
promises, we continue to fight for this today.
    There is a simple historical fact that separates the two 
tribes. It is the fact that led ultimately to the Colville 
settlement of its claim. The settlement under the Colvilles 
received $53 million in back damages and annual payments in 
perpetuity that since 1994 have been $15 million to $20 million 
each year. I think it would be unprecedented for one tribe to 
receive such compensation from the United States on the exact 
identical issue that a sister tribe would receive nothing.
    In the mid-1960's, the Spokane Tribe, a trusting tribe that 
had always come to the aid of the U.S. Government whenever 
asked, entered into a cooperative relationship with the United 
States, and in 1967 the tribe settled its Indian Claims 
Commission case. The Colville's did not. Instead, the 
Colville's persisted with their legal battles through the 
1960's and beyond the days of the task force.
    The Colville's had not raised the Grand Coulee claim either 
in their original ICCA case any better than the Spokanes, but 
their decades-long resistance to settlement enabled them to 
benefit from a 1970's Indian Claims Commission case. In 1975, 
the Commission ruled for the first time ever that it had 
jurisdiction over cases where the wrong continued beyond the 
ICCA's 1951 statutory deadline.
    From this point forward, it seems our trusting ways have 
been working against us, because the Colvilles, armed with that 
new decision, in 1976 had sought and obtained permission to 
amend their claim to include for the first time the Grand 
Coulee. Our tribe, having come to terms with the United States 
in the 1960's, had no case to amend.
    In 1978, the Indian Claims Commission ruled that the United 
States' conduct in building Grand Coulee Dam was unfair and 
dishonorable. Therefore, they awarded the Colville Tribes over 
$3 million for fisheries. In 1992, the Federal Circuit Court of 
Appeals ruled that the Colvilles' claim for power values based 
on the same standard was not barred. With that leverage, the 
Colville's secured a settlement which in 1994 the Congress 
approved Public Law 103-436.
    Nine years ago, in the context of the Colville settlement, 
I came here and testified to you, Congress, on my tribe's 
behalf. I asked Congress to include our settlement with the 
Colville's or to waive the statute of limitations so we may 
also present our case. But rather than providing our requested 
relief, Congress again directed the United States to negotiate 
a fair settlement. Unfortunately, again Congress' directive 
never happened.
    Since then, I have participated in virtually all 
discussions held between the tribe and the three separate BPA 
administrators that had represented the United States. During 
the past nine years, we have been forced to confront countless 
tactics that run directly counter to Congress' direction and 
intent, that our Grand Coulee claim be negotiated in good faith 
and on its merits.
    For the first several years, we met nothing but delay and 
assertion of technical legal defenses. Members of Congress who 
had been made aware of these failings admonished the United 
States, stating in clear terms that the negotiation must be on 
the merits of our claim without consideration of legal 
defenses, and that definition negotiations must involve 
flexibility.
    After 9 years of fruitless negotiations, 9 years of broken 
promises and delays, I am back here today requesting that 
justice not go unanswered; that the U.S. Government recognize 
our contributions and sacrifices to this great Nation. To 
compensate one of two tribes devastated by Grand Coulee and not 
the other has only compounded the injustice to our people and 
prolonged this conflict. We believe it would be unprecedented 
for Congress to only provide relief to one tribe and not the 
other, when both are so similarly impacted.
    We also make two quotes: Acting Associate Solicitor 
Aschenbrenner, quote, ``The government overlooked the 
prohibition against a guardian seizing property of its own 
ward, and then profiting from the seizure.'' Also a quote from 
Chief Justice Blackmun, ``Great nations like great men should 
honor their word.''
    In closing, Mr. Chairman and honorable members of the 
committee, I ask that you listen to your hearts. We have no 
place to turn, we have no place to go. We ask for our day of 
justice. We have waited for this day for over 60 years. One 
last comment from the words of the Spokane Tribe and in our 
language, that goes [remarks in native tongue], listen to your 
hearts what is on your heart.
    Thank you.
    [Prepared statement of Mr. Seyler appears in appendix.]
    Senator Inouye. Thank you very much.
    I have been advised that Mr. Funke would like to say a few 
words.
    Mr. Funke. Thank you Mr. Chairman.
    Just a few words. Just to give you a sense of what was 
going on in the 1930's on the Spokane Indian Reservation before 
Grand Coulee was visited on these people. They were one of the 
most isolated tribes in America. They were sitting there on the 
shores of the Columbia River and the Spokane River. Their 
reservation is bordered by and includes within the description 
of the reservation the Columbia River and the Spokane River. It 
is very unusual for the United States to do that. They did that 
for the specific reason that these people were so tied to those 
rivers that they included them within the boundary of the 
Spokane Reservation. Very unusual.
    Sitting there very isolated, intact Indian communities, 
virtually untouched, and in come 7,800 non-Indian workers 
plopped right in the middle of that whole operation to build 
Grand Coulee. As the United States is moving to build Grand 
Coulee as a public works project, and to begin production of 
energy, they made promises to the tribe about how they would 
protect their interests. They made promises to the tribe that 
they would get a share of the power revenues. And then they 
went ahead and built Grand Coulee and they have not paid the 
tribe anything. They started flooding their lands and people 
were being driven out of their homes.
    As that was occurring their cemeteries were being buried, 
their cultural sites and the best land on that reservation was 
being inundated, then Congress saw fit to direct the Secretary 
to designate a taking of those lands. It was not a bargain 
deal. It was not a sale. It was a taking of Indian lands as 
directed by Congress. Go in and designate what you want and 
what you need, and then you, Secretary, determine what that is 
worth. What he thought it was worth, thousands of acres of 
land, cutting off their fish runs, disrupting their culture, 
their economy, their health system, their social systems, their 
entire life-way, what he thought that was worth was $4,700.
    Well, then they turned around and started reaping billions 
annually from the value of Grand Coulee. We are not against 
people and so-called progress and the generation of value from 
hydropower. But this Nation has benefited tremendously from the 
generation of hydropower at Grand Coulee. It is called the 
``economic engine'' of the Northwest.
    I could spend hours telling you the value of Grand Coulee. 
It is the keystone in the Federal Columbia River Power System. 
It regulates water supply all the way from Canada into the 
United States, all the way to the southern end. It regulates 
the Transmission Inter-tie. It generates billions of kilowatts. 
The only group that I can identify that really does not share 
in the value of the generation of this power is the people that 
this land was stolen from to build it. They are the only people 
that do not benefit from it. Everybody else reaps millions, 
billions. They got $4,700. That is atrocious.
    Larry Aschenbrenner says that was an act of confiscation by 
the guardian from land that belonged to the ward. And then the 
United States turned around and converted it to their own use. 
That is what the U.S. Associate Solicitor for Indian Affairs 
had to say about that activity and about that transfer.
    A lot is made about the fact, Senator, that the tribe did 
not file Grand Coulee claims on time back in 1951; that the 
Colvilles filed in 1951, why didn't the Spokanes? If they could 
do it, why didn't you do it? Well, the fact of the matter and 
if the truth were really revealed, neither tribe filed in 1951 
to beat that statute of limitations. The Colvilles did not and 
neither did the Spokane. Neither one of them did because they 
were in discussions with the United States. They were being 
represented by the United States saying their interests would 
be protected. The United States was telling them they would 
provide compensation and protect their interests. They were in 
negotiation with the United States for management of the Grand 
Coulee Reservoir. Nothing was being said about filing claims 
through this entire period.
    When the United States started asserting legal defenses in 
the 1960's and 1970's, well, in 1967 the Spokane Tribe settled 
their claims case, a claims case based on land. It did not have 
anything to do with hydropower. At that point in the late 
1960's and 1970's, neither tribe had filed. Then the United 
States started for the first time to assert defenses. Instead 
of continued negotiating, they began to both negotiate and 
start to erect defenses against the tribes.
    In 1975, the Navajo case was decided, which allowed claims 
that had not been filed in 1951 by the statute, you could take 
those claims and if you could relate them back to a wrong 
occurring in 1951, you could add those to claims you did file 
in 1951. So the Colvilles had not yet settled their case. They 
went into the court and asked the court to amend their petition 
to add Grand Coulee claims in 1976, not in 1951, but in 1976. 
That is the legal difference between this tribe and the 
Colvilles. They had an active case that they could amend in 
1976 to relate back to 1951 or they would have been out of luck 
probably, too.
    So that is the only difference legally between these two 
tribes. So one is compensated; the other is told, you did not 
put that postage stamp on that envelope back in 1951, so you 
are out of luck. We now have a defense against you called 
navigational servitude. It does not have anything to do with 
fairness. It does not have anything to do with honor. All it 
has to do with is, navigational servitude, a defense. Fairness 
and honor are not on the table where you are concerned because 
you did not make that filing, or you did not have a case to 
amend.
    So just to illustrate the legal difference between the two 
and why one is compensated today and Congress has settled with 
one tribe, and the United States has not settled with the 
Spokane.
    Thank you.
    Senator Inouye. Thank you very much, Mr. Funke.
    Dr. Pace, would you care to add something to this?
    Mr. Pace. Thank you, Mr. Chairman and members of the 
committee. I will be very brief.
    In terms of the benefits that have been derived, Senator 
Cantwell mentioned the contribution in World War II. That was 
the aircraft. The electricity that was produced at Grand Coulee 
was used to produce the aircraft that turned the tide in the 
Pacific. Another thing that the project contributed at that 
time was readily available power to build the atomic bomb at 
Hanford, so there was a national security contribution there.
    I don't know if we have mentioned the Columbia Basin 
Project. I have done some estimation. I think the fact that a 
full water supply is provided for 500,000 acres has caused an 
increase in the valuation of land on the order of $2.5 billion. 
There are another 500,000 acres that potentially could have a 
full water supply. So there have been significant benefits to 
Eastern Washington.
    The support the project provides for the electric system 
serving the Western United States is unparalleled by any other 
asset. There simply is no substitute for Grand Coulee. If Grand 
Coulee was not available, the system operators would have far 
less flexibility. The system would be far less reliable, much 
less efficient, and be much more costly. So those are very 
significant national, regional and extra-regional benefits that 
are conferred by this project.
    At the same time, I have worked for the Spokane Tribe on 
their TANF program. I can tell you that the Spokane tribal 
government is essentially on life support. They have slashed 
millions of dollars out of their budgets between fiscal year 
1999 and fiscal year 2002. Over $1.3 million has come out of 
those budgets. That has impacted their ability to deliver 
services to their tribal membership. It has impacted their 
ability to perform a number of other governmental functions. 
Their most recent round of budget cuts, looking forward to 
fiscal year 2004, have again devastated the tribe, with another 
$1.3 million coming out of their general fund just to balance 
their budget.
    Their health care facility operates on priority one status. 
You cannot even get service unless you are essentially dying or 
about to die. That is the state of affairs there.
    So there are dramatic contributions that Chairman Seyler 
and the people that have gone before him have made, and that 
the people who come after him will make from the Spokane Tribe. 
They have not shared in the substantial benefits of this 
project.
    Thank you.
    Senator Inouye. I thank you very much, Dr. Pace.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I wondered if I could, Chairman Seyler, go back over a few 
things, because I think it is important for people to 
understand the damage that actually has been done in the area. 
While we are talking about the Colville Federation and the 
restitution that was given to them, sometimes we get lost in 
all the numbers. Could you provide the committee some detail 
about the tribal assets that have been inundated because of the 
rising river?
    Mr. Seyler. The Spokane Tribe, being historically living 
along the river, only naturally started developing through the 
years those farms, the orchards, those families as they built 
their homes, used the cemeteries that historically lay our 
ancestors were all covered over. Every year, that water as it 
has fluctuated for the Nation's use opens those graves up, 
opens up those village sites, opens up the cultural and 
spiritual sites. Within the records, you will see that there 
were other hydropower sites that could have been built 
benefiting the Spokane Tribe. Those have been covered over. 
That is probably some of the most.
    Senator Cantwell. Was there any attempt to relocate the 
graves during the construction of the dam?
    Mr. Seyler. More so for the Colville Tribe because they had 
more notice that it was going to happen. A few graves did get 
relocated, just on a last minute, maybe 1 week before they were 
covered over. But every year, we have people down on the boats 
walking the shores, trying to protect those graves. That water 
fluctuates on most years 90 feet. If you take 90 feet in a 
valley, sometimes you have a 1-mile long beach, for 18 miles, 
sometimes narrower, but sometimes 1 mile of beach. The Spokane 
River is about 15 miles like that, so it is a constant looking 
for those graves, because we do not know where they are at, 
because historically we have been there for over 10,000 years.
    Senator Cantwell. So compared to the Colvilles, you think 
that maybe what, 90 percent of those graves were not moved?
    Mr. Seyler. They are still there.
    Senator Cantwell. And have been affected and continue to be 
affected.
    Mr. Seyler. As of last month, I can attest that graves, we 
still had to relocate some as we found them coming up open.
    Senator Cantwell. And Chairman Seyler, what about the 
economic loss from salmon as a mainstay for the tribe?
    Mr. Seyler. Both economically and just for life itself, 
economically we cannot fish salmon. We have no place to go get 
salmon if we wanted. The Colvilles do. They can go to Chief 
Joseph and pull those fish out of the river. Other tribes can 
go to where the Klamath Falls used to be, where the other 
fishing sites used to be, and fish for those salmon. We do not 
have that right anymore, unless we buy a State permit. We 
should not have to do that.
    Senator Cantwell. Prior to the construction of the dam, 
though, the mainstay of economic resource for the tribe was 
salmon fishing?
    Mr. Seyler. Centered around salmon. Prior to the 
construction, salmon benefited the tribes not just in 
sustenance, but also it was a trading item. When times were 
tough, we could take the salmon and trade with other tribes. 
The economic value, we never sold the salmon because in our 
teachings, you do not take anything more than you can eat. So 
it is hard to put an economic value as far as sales of the 
salmon because that was not our heritage. We were not allowed 
to take something from the river if it was not for our own 
provision. That is just our cultural way.
    Senator Cantwell. In the 1940 directive by the Secretary of 
the Interior on what is just and equitable compensation, I 
think they came up with some number.
    Mr. Seyler. $4,700.
    Senator Cantwell. $4,700. I don't know if under any 
scenario $4,700 would have been equitable justification. But 
what do you think the number should be as far as payment to the 
tribe as it relates to the impact of the Grand Coulee Dam and 
the Federal Power Act?
    Mr. Seyler. I think fairness would go back to the process 
that was developed, and we know that there was also a tie to 
the Colville legislation through the years. I have had to deal 
with that. We feel that even they were cut short of what they 
deserved. The $39.4 million that has been mentioned over the 
years by the tribe is fair to us, not that it based on the 
Colvilles is probably not enough, but that is something that we 
could move forward with.
    Over the years, we have had negotiations, and following the 
identical discussions that the Colville Tribal Council had with 
the U.S. Government, when they came to a loggerhead, the 
Colville Tribe had a high, I guess BPA or the Government had a 
low figure, and they just cut the baby right in half. That is 
where they come up with their $57 million and their $15.25 
million annually. There was no formula. They had no formula. 
There was a formula created later to work around that number. 
That came directly from their economist. My good friend and 
chairman at that time, Eddie Pomantier, that came from them 
directly and that was the method that was used.
    Senator Cantwell. The damage done by Lake Roosevelt, which 
has been specified as it related to the Colvilles and their 
payments, was similar to the damage done from Lake Roosevelt to 
the Spokanes?
    Mr. Seyler. Identical, if not worse for the Spokanes, 
because of the no-notice. I saw there was a video that was 
done, and I cannot recall even what it was. Actually, it was 
the first camera that came out of California, a video camera 
that was colored. It showed the Colville Tribes taking the time 
to remove those graves, taking the time to relocate their homes 
and their churches and that. Where the Spokanes as the water 
rose, we had to watch ours float down river.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    I gather, Mr. Chairman, that at this moment the 
negotiations between BPA and your tribe are not going on.
    Mr. Seyler. That is correct.
    Senator Inouye. Do you intend to resume these negotiations?
    Mr. Seyler. This morning, both BPA and the Spokane Tribe 
testified over at the House on this issue, and both parties 
were asked that same question. Both parties indicated that they 
would like to go back to the negotiating table. My comment to 
that is that the tribe has been trying to negotiate this for 
the last 60 years and just with one understanding is that 
whoever negotiates for the Federal Government on this is that 
they really understand what the term ``negotiation'' means. 
That is not what we have found in the past, a take-it-or-leave-
it offer, but both parties show willingness at this time.
    Senator Inouye. On the payment of the compensation, I 
presume part of that will come from the Bonneville Power 
Administration and part of it from the Government.
    Mr. Seyler. Up until this point, it has been looked at just 
from Bonneville. I think just recently they looked at other 
forums. The Spokane tribal members do not care where it comes 
from. They just feel that things need to be fairly and 
honorably addressed. I think there are some real avenues that 
could resolve this issue. Part of that answer, because of who 
is receiving the rewards, Bonneville is part of that; maybe the 
water and land settlement could be used. We have other thoughts 
and ideas, but it is getting those onto the table and really 
looked at carefully.
    Senator Inouye. The bill, as you know, does not establish 
the source of compensation payment. I presume that was done to 
give you the flexibility to negotiate. If this committee can do 
anything to bring this about or to expedite it, we would be 
very happy to help.
    Mr. Seyler. That is very much appreciated.
    Senator Inouye. Do you have further questions?
    Senator Cantwell. Mr. Chairman, if I could, to followup on 
your comment, I believe that there have been many benefits from 
the establishment of the Grand Coulee Dam, and obviously, a 
history here that we have had the opportunity to look back on 
both from the Colvilles and the experience that the Spokanes 
have. So I guess at this point in time I am interested in 
looking at restitution to the Spokanes. If that means looking 
broader at the Treasury as opposed as to the Bonneville Power 
Administration as a source, I am happy to consider a variety of 
options.
    What I think is important for today's hearing is that we 
have had two courses of history here, two entities, sovereign 
nations impacted in similar ways. I am not sure if we actually 
weighed actual damages, we might have the most damage done 
right before us today. And yet, the restitution was not paid. 
So not only do we want to see that restitution, we want to look 
back on Indian country history and say that there was equitable 
access to restitution, equitable results, and not see future 
generations viewing the films of a lost opportunity to preserve 
the heritage and the history of a culture within the State of 
Washington.
    So I very much appreciate your attention to this important 
issue and to Senator Murray being here as well today.
    Senator Inouye. The record of this hearing will be kept 
open for 2 weeks just in case you want to supplement your 
remarks or to add anything.
    Mr. Seyler. Just one last comment. I think it would only be 
appropriate that not only everything be expected out of BPA, 
because this country, the great country of the United States of 
America, has also benefited from what the tribe lost, what we 
gave. We gave everything for this country to survive the war, 
to help it come out of the Depression and many other things.
    Thank you.
    Senator Inouye. I thank all of you very much for this most 
enlightening hearing. I thank Senator Cantwell. I think this 
has been very helpful. You have me very eager to move forward.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    The hearing is adjourned.
    Mr. Seyler. Thank you, Mr. Chairman. Thank you, committee.
    [Whereupon, at 3 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    Thank you, Senator Inouye, I greatly appreciate your willingness to 
hold this important hearing and for your cosponsorship of this 
legislation. You have been a consistent champion for establishing fair 
and equitable settlements agreements that compensate sovereign Indian 
nations harmed by actions of the U.S. Government. For this and other 
efforts on behalf of Washington State tribes, I thank you.
    I would also like to thank my friend and colleague Senator Murray 
for her remarks in support of this bill. As you are all aware, Senator 
Murray was instrumental in providing the Confederated Colville Tribe 
with a fair and equitable settlement in 1994 for nearly identical 
impacts to its reservation. I look forward to working with her as we 
move this settlement agreement forward.
    And of course I would like to thank Warren Seyler and the other 
members of the Spokane Tribe and their representatives for coming 
today. I know you have been fighting for just compensation for the 
damages to your Reservation and way of life since construction of the 
Grand Coulee Dam began in 1933. I recognize that it has been an 
extremely frustrating process, and I hope this hearing will provide the 
necessary catalyst to once and for all resolve the Spokanes claim 
against the U.S. Government.
    I would also like to take this opportunity to reiterate my 
condolences to you and the tribe regarding the death of Bruce Wynne. 
Bruce's dedication to his community was legendary, and his loss will be 
felt not just in Washington State, but across the country. My thoughts 
and prayers are with his family and the tribe at this difficult time. I 
know Bruce spent a great deal of time trying to solve this very issue, 
so it is my hope that we can act quickly to settle this long-standing 
grievance which could serve as a legacy to Bruce's leadership.
    Mr. Chairman, my goal for this hearing is to establish for the 
record the harm done to the Spokane Tribe following construction of the 
Grand Coulee Dam, and the obligation the Federal Government has to 
compensate the Spokanes for these damages.
    For more than one-half century, the Grand Coulee Project has made 
an extraordinary contribution to this Nation. It helped pull the 
economy out of the Great Depression. It provided the electricity that 
produced aluminum required for airplanes and weapons that ensured our 
national security. The Project continues to produce enormous revenues 
for the United States, it is a key component of the agricultural 
economy in eastern Washington, and plays a pivotal role in the electric 
systems serving the entire western United States.
    However, these benefits have come at a direct cost to tribal 
property that became inundated when the U.S. Government built the Grand 
Coulee dam. Before dam construction, the free flowing Columbia and 
Spokane Rivers supported robust and plentiful salmon runs and provided 
for virtually all of the subsistence needs of the Spokane Tribe. After 
construction, the Columbia and Spokane rivers flooded tribal 
communities, schools, and roads, and the remaining stagnant water 
continues to erode reservation lands today.
    The legislation that Senators Inouye, Murray, and I introduced in 
July is similar to Senator Murray's 1994 bipartisan bill codified a 
settlement and provided perpetual payments to the neighboring 
Confederated Colville Tribes. To date, the Colville Tribes have 
received over $180 million in payments for their lands inundated by 
Lake Roosevelt.
    This bill builds on the success of that successful settlement by 
providing the Spokane Tribe of Indians' with compensation that is 
directly proportional to the settlement afforded the Colville Tribes. 
Specifically, the Spokane Tribe would receive 39.4 percent of the past 
and future compensation awarded the Colville Tribes pursuant to the 
1994 legislation. This percentage is based on the proportion of tribal 
lands impacted after the Federal Government built the Grand Coulee 
Project. S. 1438 also outlines the facts of the Spokane claim and 
describes how the tribe will use any forthcoming compensation funds.
    Mr. Chairman, if you will indulge me, I would like to read for the 
record the findings forwarded by this legislation:
    From 1927 to 1931, at the direction of Congress, the U.S. Army 
Corps of Engineers investigated the Columbia River and its tributaries 
to determine sites at which power could be produced at low cost.
    The Corps of Engineers identified a number of sites, including the 
site at which the Grand Coulee Dam is located; and recommended that 
power development at those sites be performed by local governmental 
authorities or private utilities under the Federal Power Act.
    Under section 10(e) of that act, a licensee is required to 
compensate an Indian tribe for the use of land under the jurisdiction 
of the Indian tribe.
    In August 1933, the Columbia Basin Commission, an agency of the 
State of Washington, received a preliminary permit from the Federal 
Power Commission for waterpower development at the Grand Coulee site.
    In the mid-1930's, the Federal Government, which is not subject to 
the Federal Power Act, Federalized the Grand Coulee Dam project and 
began construction of the Grand Coulee Dam.
    At the time at which the Grand Coulee Dam project was Federalized, 
the Federal Government recognized that the Spokane Tribe and the 
Confederated Tribes of the Colville Reservation had compensable 
interests in the Grand Coulee Dam project, including compensation for 
the development of hydropower; the extinguishment of a salmon fishery 
on which the Spokane Tribe was almost completely financially dependent; 
and the inundation of land with loss of potential power sites 
previously identified by the Spokane Tribe.
    In the act of June 29, 1940, Congress granted to the United States 
all rights to Spokane Tribe and Colville Indian Reservations lands that 
were required for the Grand Coulee Dam project; and various rights-of-
way over other land under the jurisdiction of Indian tribes that were 
required in connection with the project. Additional provisions provided 
that compensation for the land and rights-of-way was to be determined 
by the Secretary of the Interior in such amounts as the Secretary 
determined to be just and equitable.
    In response to these provisions, the Secretary of the Interior paid 
to the Spokane Tribe $4,700, and $63,000 to the Confederated Tribes of 
the Colville Reservation.
    In 1994, following 43 years of litigation before the Indian Claims 
Commission, the United States Court of Federal Claims, and the United 
States Court of Appeals for the Federal Circuit, Congress ratified an 
agreement between the Confederated Tribes of the Colville Reservation 
and the United States that provided for damages and annual payments of 
$15,250,000 in perpetuity, adjusted annually, based on revenues from 
the sale of electric power from the Grand Coulee Dam project and 
transmission of that power by the Bonneville Power Administration.
    In legal opinions issued by the Office of the Solicitor of the 
Department of the Interior, a Task Force Study conducted from 1976 to 
1980 ordered by the Committee on Appropriations of the Senate, and 
hearings before Congress at the time at which the Confederated Tribes 
of the Colville Reservation Grand Coulee Dam Settlement Act was 
enacted, it has repeatedly been recognized that the Spokane Tribe 
suffered damages similar to those suffered by, and had a case legally 
comparable to that of, the Confederated Tribes of the Colville 
Reservation; but that the 5-year statute of limitations under the act 
of August 13, 1946 precluded the Spokane Tribe from bringing a civil 
action for damages under that act.
    The inability of the Spokane Tribe to bring a civil action before 
the Indian Claims Commission can be attributed to a combination of 
factors, including the failure of the Bureau of Indian Affairs to 
carryout its advisory responsibilities in accordance with that act; and 
an attempt by the Commissioner of Indian Affairs to impose improper 
requirements on claims attorneys retained by Indian tribes, which 
caused delays in retention of counsel and full investigation of the 
potential claims of the Spokane Tribe.
    As a consequence of construction of the Grand Coulee Dam project, 
the Spokane Tribe has suffered the loss of the salmon fishery on which 
the Spokane Tribe was dependent; identified hydropower sites that the 
Spokane Tribe could have developed; and hydropower revenues that the 
Spokane Tribe would have received under the Federal Power Act had the 
project not been Federalized; and continues to lose hydropower revenues 
that the Federal Government recognized were owed to the Spokane Tribe 
at the time at which the project was constructed.
    More than 39 percent of the land owned by Indian tribes or members 
of Indian tribes that was used for the Grand Coulee Dam project was 
land of the Spokane Tribe.
    Mr. Chairman, the United States has a trust responsibility to 
maintain and protect the integrity of all tribal lands within its 
borders. When Federal actions physically or economically impact harm, 
our nation has a legal responsibility to address and compensate the 
damaged parties. Unfortunately, despite countless efforts, one-half 
century has passed without justice to the Spokane people.
    The time has come for the Federal Government to finally meet its 
fiduciary responsibility for converting the Spokane tribe's resources 
to its own benefit. I believe that the legislation we are proposing 
today will catalyze the completion of a fair and equitable settlement 
and put a closure to these matters. I was pleased to see similar 
bipartisan legislation introduced earlier this year in the U.S. House 
of Representatives and I am glad to see that the House bill also 
received a hearing just this morning.
    Again, thank you Mr. Chairman for holding this hearing and support 
this important legislation. I look forward to working with you, the 
Indian Affairs Committee, our Senate colleagues, and the Spokanes as 
endeavor to develop a satisfactory and permanent settlement with all 
parties involved.
                                 ______
                                 

 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington

    Good morning, Mr. Chairman, and thank you for this opportunity. I'm 
proud to introduce to the committee the distinguished chairman of the 
Spokane Tribal Business Council, Chairman Warren Seyler. He's a leading 
figure in Washington's tribal communities, and I know his testimony 
will be of great value to this committee.
    Before I introduce him, I'd like to share a few ideas about S. 
1438. Earlier this year, I joined with Senators Cantwell and Inouye in 
offering legislation that would finally compensate the Spokane Tribe 
for its contribution to the hydropower that is generated by the Grand 
Coulee Dam.
    Some of you will recall that I introduced similar legislation in 
the 106th and 107th Congresses.
    The Grand Coulee Dam is the largest electricity producer in the 
United States. It provides electricity and water to the Columbia Basin 
Project, which is one of the world's largest irrigation projects. For 
more than 60 years, the Grand Coulee has been the backbone of the 
Northwest's Federal power grid and our agricultural economy.
    But for the Native peoples of this region, construction of the 
Grand Coulee Dam came at a very high price. For the Spokane Tribe in 
particular, it brought an end to a way of life.
    The Spokane River was once a free-flowing waterway that supported 
plentiful salmon runs. It became a barren stretch of slack water that 
now erodes the southern lands of the reservation. In fact, the tribe's 
reservation has been flooded on two sides.
    Mr. Chairman, S. 1438 is not the first piece of legislation seeking 
to compensate a Tribe for losses brought by construction of the Grand 
Coulee Dam. In 1994, Congress passed similar settlement legislation to 
compensate the neighboring Confederated Colville Tribes.
    Since the 1970's, the Congress and Federal agencies have indicated 
that both the Colville and Spokane Tribes should be compensated for 
their losses. This legislation will provide a long overdue settlement 
to the Spokane Tribe.
    Mr. Chairman, it is now my pleasure to introduce Chairman Seyler to 
the committee. First elected to the Spokane Tribal Business Council in 
1990, Chairman Seyler also serves on the board of the Upper Columbia 
United Tribes, which is involved in fish and management issues along 
the Columbia River. He is also active in management issues at Lake 
Roosevelt, a reservoir created when the Grand Coulee Dam was 
constructed.
    Finally, Mr. Chairman, I'd like to offer my condolences to the 
Spokane Tribe. Last week the tribe--and indeed all of Indian country--
suffered a great loss with the passing of former Chairman Bruce Wynne. 
Bruce led with his heart and had a remarkable ability to bridge 
generations. His leadership, knowledge of history, and warm personality 
will be missed, but his legacy continues in leaders like Chairman 
Seyler.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T9744.001
    
    [GRAPHIC] [TIFF OMITTED] T9744.002
    
    [GRAPHIC] [TIFF OMITTED] T9744.003
    
    [GRAPHIC] [TIFF OMITTED] T9744.004
    
    [GRAPHIC] [TIFF OMITTED] T9744.005
    
    [GRAPHIC] [TIFF OMITTED] T9744.006
    
    [GRAPHIC] [TIFF OMITTED] T9744.007
    
    [GRAPHIC] [TIFF OMITTED] T9744.008
    
    [GRAPHIC] [TIFF OMITTED] T9744.009
    
    [GRAPHIC] [TIFF OMITTED] T9744.010
    
    [GRAPHIC] [TIFF OMITTED] T9744.011
    
    [GRAPHIC] [TIFF OMITTED] T9744.012
    
    [GRAPHIC] [TIFF OMITTED] T9744.013
    
    [GRAPHIC] [TIFF OMITTED] T9744.014
    
    [GRAPHIC] [TIFF OMITTED] T9744.015
    
    [GRAPHIC] [TIFF OMITTED] T9744.016
    
    [GRAPHIC] [TIFF OMITTED] T9744.017
    
    [GRAPHIC] [TIFF OMITTED] T9744.018
    
    [GRAPHIC] [TIFF OMITTED] T9744.019
    
    [GRAPHIC] [TIFF OMITTED] T9744.020
    
    [GRAPHIC] [TIFF OMITTED] T9744.021
    
    [GRAPHIC] [TIFF OMITTED] T9744.022
    
    [GRAPHIC] [TIFF OMITTED] T9744.023
    
    [GRAPHIC] [TIFF OMITTED] T9744.024
    
    [GRAPHIC] [TIFF OMITTED] T9744.025
    
    [GRAPHIC] [TIFF OMITTED] T9744.026
    
    [GRAPHIC] [TIFF OMITTED] T9744.027
    
    [GRAPHIC] [TIFF OMITTED] T9744.028
    
    [GRAPHIC] [TIFF OMITTED] T9744.029
    
    [GRAPHIC] [TIFF OMITTED] T9744.030
    
    [GRAPHIC] [TIFF OMITTED] T9744.031
    
    [GRAPHIC] [TIFF OMITTED] T9744.032
    
    [GRAPHIC] [TIFF OMITTED] T9744.033
    
    [GRAPHIC] [TIFF OMITTED] T9744.034
    
    [GRAPHIC] [TIFF OMITTED] T9744.035
    
    [GRAPHIC] [TIFF OMITTED] T9744.036
    
    [GRAPHIC] [TIFF OMITTED] T9744.037
    
    [GRAPHIC] [TIFF OMITTED] T9744.038
    

</pre></body></html>
